VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                     Veterans Health
                                                                     Administration
                                                                             Review of
                                                                    the Management of Travel,
                                                                    Duty Stations, Salaries and
                                                                     Funds in the Procurement
                                                                        and Logistics Office




                                                                                       September 30, 2013
                                                                                         11-01653-300
              ACRONYMS AND ABBREVIATIONS

FLITE         Financial and Logistics Integrated Technical Enterprise
IDP           Individual Development Plan
OALC          Office of Acquisition, Logistics, and Construction
OIG           Office of Inspector General
OPM           Office of Personnel Management
PAID          Personnel and Accounting Integrated Data
P&LO          Procurement and Logistics Office
SAM           Strategic Asset Management
VA            Veterans Affairs
VHA           Veterans Health Administration




        To Report Suspected Wrongdoing in VA Programs and Operations:
                             Telephone: 1-800-488-8244
                             E-Mail: vaoighotline@va.gov
                    (Hotline Information: www.va.gov/oig/hotline)
                  Report Highlights: Review of VHA’s
                  Management of Travel, Duty Stations,
                  Salaries and Funds in P&LO

Why We Did This Review                          Finally, P&LO improperly augmented
                                                FY 2010 appropriations by using the VA
The Office of Inspector General conducted       Supply Fund to pay travel costs for an
this review to determine the merits of four     employee whose salary was funded through
allegations claiming the Veterans Health        appropriations.   P&LO did not have
Administration’s Procurement and Logistics      procedures in place to ensure appropriate
Office (P&LO) mismanaged travel, duty           use of the VA Supply Fund.
stations assignments, salaries, and funds.
                                                What We Recommended
What We Found
                                                We recommended the Chief Procurement
We substantiated two of the four allegations:   and Logistics Officer implement controls to
P&LO did pay some employees the                 strengthen employee travel review and
incorrect salaries for their duty station       authorization.    P&LO should initiate a
locations and P&LO did improperly use the       periodic review of all employee duty station
VA Supply Fund to pay for travel.               assignments to correct assignment errors and
However, we did not substantiate that           recoup incorrect payments as appropriate.
P&LO authorized excessive, unnecessary
travel or that employees were virtually         Agency Comments
stationed away from where they needed to
work.                                           While the Under Secretary for Health
                                                concurred, the Principal Executive Director,
We determined P&LO needed to strengthen         Office of Acquisition, Logistics, and
internal procedures for approving travel.       Construction generally concurred with our
P&LO needs to ensure authorizing officials      report recommendations. We consider the
have direct knowledge of employee travel        corrective action plans they provided
plans and only authorize travel after           acceptable and will follow up as appropriate
validating the necessity of the travel.         on their implementation.

P&LO paid three employees incorrect
salaries due to inaccurate duty station
assignments in FY 2010. Prior to our
review, P&LO identified the errors for two
of the three employees, and corrected the
salaries and recouped related overpayments.
The third employee was overpaid about
$18,000 into FY 2013 because P&LO did                     LINDA A. HALLIDAY
not have standard procedures in place to              Assistant Inspector General
ensure accurate duty station assignments.              for Audits and Evaluations



                                                                                           i
                                           TABLE OF CONTENTS

Introduction ......................................................................................................................................1 

Results and Recommendations ........................................................................................................2 

    Allegation 1  P&LO Authorized Excessive, Unnecessary Travel ............................................2 

                           Recommendation .................................................................................................4 

    Allegation 2  P&LO Virtually Located Some Employees Away From Where They
                  Needed To Work .................................................................................................5 

    Allegation 3  P&LO Paid Some Employees Incorrect Salaries for Their Locations ................6 

                           Recommendations ...............................................................................................7 

    Allegation 4  P&LO Used the VA Supply Fund Inappropriately .............................................8 

                           Recommendations ...............................................................................................9 

Appendix A                 Scope and Methodology....................................................................................11 

Appendix B                 Background .......................................................................................................12

Appendix C                 Potential Monetary Benefits in Accordance With Inspector General Act
                           Amendments .....................................................................................................13

Appendix D                 Under Secretary for Health Comments .............................................................14

Appendix E                 Principal Executive Director, Office of Acquisition, Logistics, and
                           Construction Comments ....................................................................................18 

Appendix F                 Office of Inspector General Contact and Staff Acknowledgments...................19

Appendix G                 Report Distribution ...........................................................................................20




                                                                                                                                                  ii
                    Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO



                    INTRODUCTION
Allegations         In February 2011, the VA Office of Inspector General received an
                    anonymous Hotline allegation that the Veterans Health Administration’s
                    (VHA’s) Procurement and Logistics Office (P&LO) mismanaged travel, duty
                    station assignments, salaries, and funds for 50 employees. Specifically, the
                    complainant alleged P&LO:

                    1.    Wasted travel funds by authorizing excessive, unnecessary travel.
                    2.    Mismanaged the location of some employee duty stations by virtually
                          locating them away from where they needed to work, thereby
                          contributing to wasted travel funds.
                    3.    Paid some employees incorrect salaries based on their duty station
                          assignments.
                    4.    Misused the VA Supply Fund to improperly augment VHA
                          appropriations.

                    To determine the merits of the allegations, we reviewed data from the
                    Personnel and Accounting Integrated Data (PAID) and FedTraveler systems
                    to identify duty station assignments, salaries paid, travel taken, and the
                    source of funding for travel and salaries in FY 2010 for the employees cited
                    in the allegations.       We then interviewed and reviewed supporting
                    documentation for 20 of the 50 P&LO employees selected for review based
                    on their travel, duty stations, salaries, and funding, as well as their managers
                    when available, travel approvers, and other P&LO personnel.

Background          P&LO develops and oversees implementation of VHA policies and processes
                    for VHA purchasing related to logistics, procurement, and standardization of
                    commodities and equipment. P&LO personnel also serve as liaisons with
                    logistics staff in the 21 Veterans Integrated Service Networks. In FY 2012,
                    VA appointed a new Chief Procurement and Logistics Officer who reports to
                    the Deputy Under Secretary for Health for Operations and Management.

                    VA funds P&LO through VHA appropriations and the VA Supply Fund, a
                    self-sustaining revolving fund that supports VA’s mission by the operation
                    and maintenance of VA’s supply system. This fund recovers its operating
                    expenses through fees charged on purchases of VA products and services.
                    Management responsibility for the VA Supply Fund resides within VA’s
                    Office of Acquisition and Logistics.

                        Appendix A provides details on our scope and methodology.
                        Appendix B offers additional background information.
                        Appendix C identifies the potential monetary benefits from our review. 


VA Office of Inspector General                                                                     1
                    Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO



                    RESULTS AND RECOMMENDATIONS
Allegation 1        P&LO Authorized Excessive, Unnecessary Travel

Assessment          We did not substantiate the allegation that P&LO authorized travel that was
                    excessive or unnecessary in FY 2010. Most of the travel was associated with
                    established programs, including the Strategic Asset Management (SAM)
                    pilot project, the Presidential Management Fellows Program, and the
                    Technical Career Field Internship Program. However, we did determine that
                    P&LO did not properly manage travel. Appropriate controls were not in
                    place to ensure employee travel was necessary. P&LO nonsupervisory staff
                    authorized travel for other employees without knowledge of their need to
                    travel. Further, P&LO supervisors were sometimes unaware that employees
                    scheduled travel or that travel was necessary to perform the employees’
                    work.

What We Did         To address whether P&LO authorized excessive, unnecessary travel, we
                    reviewed the purpose of travel for the nine employees who incurred
                    $25,000 or more in travel expenses or traveled 45 days or more in FY 2010.
                    We requested and reviewed expense report documentation from the
                    FedTraveler system and conducted interviews for each employee in our
                    sample to obtain further details. We also validated the purpose of travel with
                    the employees’ supervisors.

Purpose of          Seven employees incurred significant travel associated with the Financial
P&LO Travel         and Logistics Integrated Technical Enterprise (FLITE) program’s SAM pilot
                    project. This project attempted to standardize and consolidate asset and
                    inventory management, real property management, information technology
                    asset management, and work order and project management into a single,
                    department-wide advanced system. This pilot project was implemented at
                    one site in Milwaukee, WI, to validate and refine system operations.

                    According to P&LO employees, delays and personnel changes related to the
                    SAM pilot project during FY 2010 resulted in more travel for some P&LO
                    employees than originally planned. P&LO contributed to the SAM pilot
                    project by providing subject matter expertise in areas such as logistics,
                    prosthetics, and asset and inventory management. VA management deemed
                    onsite interaction of key team members essential for successful
                    implementation of the pilot. VA canceled the project in October 2011 due to
                    missed contract deliverables and changes in budgetary priorities for
                    information technology developments. Given the cancellation of the SAM
                    pilot project occurred after these trips, we determined travel by the P&LO
                    employees for the SAM pilot project was appropriate.

                    Our review showed that the travel by one employee—a participant in the
                    Presidential Management Fellows Program—was consistent with activities

VA Office of Inspector General                                                                   2
                    Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO


                    outlined on the employee’s Individual Development Plan (IDP). Thus, we
                    also considered this travel appropriate. The Presidential Management
                    Fellows Program helps Federal agencies meet their succession planning
                    needs by providing a resource for candidates interested in leadership and
                    management of public policies and programs. An IDP is required for each
                    program participant. The IDP generally includes training, developmental
                    assignments, and plans for rotational assignments.

                    Finally, travel by one additional P&LO employee involved in the Technical
                    Career Field Internship Program was considered appropriate. The internship
                    program provides guided developmental opportunities including site visits,
                    training conferences, and detailed rotational assignments. The employee
                    traveled for the purpose of acquiring training at the VA Acquisition
                    Academy and to perform a rotational assignment to gain procurement
                    experience at a VA Medical Center. These assignments were consistent with
                    the goals of the internship program.

Apparent            While we did not identify instances of excessive or unnecessary travel,
Control             P&LO lacked reasonable assurance that travel funds were used efficiently.
Weakness
                    VA Handbook 0636, E-Gov Travel Service (ETS) Procedures for Temporary
                    Duty (TDY) Travel, rescinded February 16, 2011, but in force during the
                    scope of this review, required all approving officials to determine if travel
                    was reasonable and necessary. However, this did not always occur.

                    Specifically, for the 9 P&LO employees, documentation on 106 (60 percent)
                    of 176 authorized trips did not include evidence of review by the travelers’
                    supervisors. Some of these trips were authorized by approving officials in
                    supervisory positions; however, these officials were not the employees’
                    direct supervisors.      Further, of these 106 trips, nonsupervisory staff
                    authorized 78 trips, and these trips did not include evidence of review by a
                    supervisor. While there is no requirement for direct supervisors to be
                    approving officials, inadequate review and approval of travel authorizations
                    increases the risk of excessive or unnecessary travel.

                    In general, we found P&LO employees authorizing travel did not first
                    determine whether the travel was reasonable and necessary. Nonsupervisory
                    approvers did not always ensure supervisors were aware of employees’
                    requests to travel.    Supervisors were not always knowledgeable of
                    employees’ travel plans or their need to travel. Supervisory reviews are a
                    fundamental financial management control over expenditures. Without this
                    control, P&LO cannot ensure that travel funds are used efficiently or for
                    appropriate work requirements.

Corrective          In the fall of 2012, P&LO established a centralized intranet portal to manage
Actions             travel approvals. The portal provides the capability for P&LO employees to
                    provide justification, business case analysis, and anticipated expenditure
                    details for supervisory approval prior to travel. After supervisory approval,

VA Office of Inspector General                                                                   3
                    Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO


                    portal documents are uploaded to the FedTraveler system for review and
                    approval by P&LO budget officials and second-level supervisors. The portal
                    also includes step-by-step instructions to ensure consistent use by all P&LO
                    employees.

                    Recommendation

                    1.    We recommend the Chief Procurement and Logistics Officer establish
                          standard operating procedures to ensure that Procurement and Logistics
                          Office approving officials only authorize travel upon obtaining the
                          information needed to determine if travel is necessary.

Management          The Under Secretary for Health agreed with our findings and
Comments and        recommendations. The Under Secretary confirmed that travel for all P&LO
OIG Response
                    staff is now entered in the centralized SharePoint portal that requires a
                    business case and full expenditure details before supervisor and Senior
                    Executive Service approvals occur. Further, the Under Secretary indicated
                    that on October 23, 2012, thorough guidance was provided to all P&LO staff
                    via email, followed by 6-weeks of training via live meetings to ensure staff
                    were properly trained.

                    We consider Recommendation 1 closed, based on P&LO’s corrective
                    actions. Appendix D provides the full text of the Under Secretary’s
                    comments.




VA Office of Inspector General                                                                   4
                    Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO


Allegation 2        P&LO Virtually Located Some Employees Away From
                    Where They Needed To Work

Assessment          We did not substantiate the allegation that P&LO virtually located
                    employees away from where they needed to work. We determined that the
                    two employees, each traveling 51 percent or more of the 251 Federal
                    workdays to a single location, were not virtual employees. The travel for
                    both employees was situational and temporary. Therefore, we did not
                    conclude P&LO mismanaged the locations for these employees.
What We Did         To address this allegation, we reviewed travel records for 43 of the 50 P&LO
                    employees who traveled in FY 2010. We identified two P&LO employees
                    who traveled so frequently to one location that it appeared the employees’
                    official duty stations were incorrect.

Travel for          We found that in FY 2010, neither the Office of Personnel Management
Virtual             (OPM) nor VA had a policy in place quantifying the maximum amount of
Employees Not
Defined
                    time an employee can spend in travel status to one location before the
                    employee’s official duty station needs to change. In addition, VA did not
                    require identification of virtual employees in FY 2010. A virtual assignment
                    occurs when an employee works full-time at a location different from the
                    hiring station, although the employee still reports to the hiring station. In
                    the absence of a Federal standard, we used the majority of working days in a
                    year at a location other than the official duty station assignment, along with
                    supporting evidence, to determine if a traveler was a virtual employee and
                    should have a different duty station assignment.

Review of           We identified two P&LO employees who traveled a significant amount of
Virtual             time—51 percent or more of the 251 FY 2010 Federal work days—to one
Employees
                    location. Neither was a virtual employee. One individual incurred
                    significant travel to Milwaukee, WI, to support the FLITE program’s SAM
                    pilot project. The other employee traveled while participating in the
                    Presidential Management Fellows Program. Because their travel was
                    situational and temporary, we concluded that the P&LO employees were not
                    virtually located away from where they needed to work.

                    We did not make recommendations because we did not substantiate the
                    allegation or identify mismanagement of the employees’ locations.




VA Office of Inspector General                                                                   5
                    Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO


Allegation 3        P&LO Paid Some Employees Incorrect Salaries for
                    Their Locations

Assessment          We substantiated the allegation that P&LO paid some employees incorrect
                    salaries for their duty station locations in FY 2010. P&LO identified and
                    corrected two such instances prior to our review; however, P&LO was still
                    overpaying one employee as of November 2, 2012. Therefore, we concluded
                    that P&LO did not consistently manage some employees’ duty station
                    assignments.

What We Did         To address whether P&LO paid employees incorrect salaries for their official
                    duty locations, we identified seven P&LO employees whose residences were
                    75 miles or more from their duty station addresses. We used 75 miles as the
                    cutoff for the employees reviewed to be consistent with a sampling
                    methodology applied on a previous audit addressing closely related
                    issues.1 In addition, we researched two individuals whose duty stations were
                    not identified in VA’s PAID system.

Duty Stations       An employee may receive locality pay—an amount above the employee’s
and Salary          prescribed salary—based on the geographic location or duty station to which
                    he or she is assigned. Title 5 United States Code § 5304, Government
                    Organization and Employees, authorizes locality pay for Federal employees.
                    Locality pay is set by comparing General Schedule and non-Federal pay in
                    each locality pay area. Per OPM guidelines, Federal employees eligible for
                    locality pay receive at least the base amount. However, employees in certain
                    geographical areas receive additional amounts based on a comparison of
                    Federal and non-Federal pay in each locality pay area.

Incorrect Pay in    In FY 2010, P&LO overpaid three of the seven employees because of
FY 2010             incorrect duty station assignments; the other four employees received correct
                    locality pay based on correct duty station assignments. Prior to our review,
                    P&LO identified and corrected the duty station assignments and salaries for
                    two of the incorrectly paid employees and recouped the salary overpayments.
                    However, P&LO did not previously identify the remaining employee who
                    received incorrect locality pay.

                    This employee received incorrect locality pay due to an incorrect duty station
                    assignment. The employee’s locality pay was for Milwaukee, WI, although
                    the employee physically worked in Madison, WI, which had a lower locality
                    pay rate. The employee had improperly received locality pay for Milwaukee
                    from November 11, 2007 through November 2, 2012, the date of the
                    employee’s retirement. As a result, we questioned the appropriateness of the
                    salary overpayment totaling about $18,000. We believe P&LO should take
                    corrective action in accordance with VA guidance.
                    1
                      Department of Veterans Affairs: Audit of Duty Station Assignments, OIG Report No.
                    11-04081-142, April 19, 2012.

VA Office of Inspector General                                                                       6
                    Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO


Corrective          During our review, P&LO officials stated they performed a review of
Actions             employee duty station assignments and identified and corrected duty station
                    assignments for 10 P&LO employees between 2011 and 2012. However,
                    P&LO’s actions did not correct the duty station assignment of the remaining
                    employee we identified during our review as receiving incorrect locality pay.

                    Recommendations

                    2.    We recommend the Chief Procurement and Logistics Officer perform
                          an annual review of all Procurement and Logistics Office employees to
                          ensure they have correct duty station assignments.
                    3.    We recommend the Chief Procurement and Logistics Officer take
                          action to recoup salary overpayments or pay underpayments for
                          incorrect duty station assignments, as appropriate, in accordance with
                          VA guidance.

Management          The Under Secretary for Health agreed with our findings and
Comments            Recommendations 2 and 3. The Under Secretary stated that between
and OIG
Response
                    2011 and 2012, the P&LO Human Resources Liaison conducted a review
                    and made several corrections to employees’ duty station assignments.
                    Further, a master report was pulled and employees’ appropriate duty station
                    locations were verified and corrected.          This review began in
                    September 2013 and will be conducted annually during the fourth quarter of
                    each fiscal year.

                    The Under Secretary also stated that a review was underway to assess
                    whether a retired P&LO employee was paid based on the correct duty
                    station. P&LO will ensure that identified overpayments are recouped or
                    underpayments are paid, as appropriate. P&LO planned to implement the
                    corrective actions by October 30, 2013.

                    The Under Secretary’s comments and action plan are responsive to the intent
                    of the recommendations. We will monitor implementation of planned
                    actions and will close recommendations when we receive sufficient evidence
                    demonstrating P&LO’s progress in addressing the issues identified.
                    Appendix D has the the full text of the Under Secretary’s comments.




VA Office of Inspector General                                                                   7
                    Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO


Allegation 4        P&LO Used the VA Supply Fund Inappropriately

Assessment          We substantiated the allegation that P&LO improperly augmented VHA
                    appropriations by using the VA Supply Fund to pay for travel. Thus, P&LO
                    did not properly manage the use of the VA Supply Fund.

What We Did         To address whether P&LO used the VA Supply Fund to improperly augment
                    VHA appropriations, we reviewed the source of funds used to pay salaries
                    and travel for 43 P&LO employees who traveled in FY 2010. We also
                    reviewed the Office of General Counsel opinions regarding the use of the
                    VA Supply Fund.

Allowable Uses      Title 38 United States Code § 8121, Revolving Supply Fund, authorizes the
of the VA           use of VA’s Supply Fund for the operation and maintenance of a supply
Supply Fund
                    system for VA, including procurement of supplies, equipment, and personal
                    services. Office of General Counsel opinions limit VA Supply Fund use,
                    stating that the Fund may not be used if a specific appropriation is available
                    for the expenditure.

                    In general, if an employee’s salary is paid using the VA Supply Fund, the
                    employee’s travel can be paid using the Fund as well. Conversely, if an
                    individual’s salary and benefits are paid through appropriated funds, the
                    individual should not receive travel reimbursements from the VA Supply
                    Fund without specific authorization. Personnel from both the Office of
                    General Counsel and the Office of Acquisition and Logistics indicated such
                    authorization is limited to instances such as acquisition training or
                    conferences related to the VA Supply Fund.

Improper Use of     We identified one P&LO employee whose salary was paid using
the VA Supply       appropriated funds while the individual’s travel was paid using the VA
Fund While
Traveling
                    Supply Fund. P&LO incorrectly used the VA Supply Fund to pay for
                    15 trips totaling about $28,000 from December 2009 through July 2010. The
                    employee traveled in support of VA national initiatives not directly related to
                    VA Supply Fund activities. A specific appropriation was available to fund
                    one of the initiatives; VA funded the other initiative with VHA medical
                    appropriations. VA should have used appropriated funds, rather than the VA
                    Supply Fund, to pay for the employee’s travel. Personnel from the Office of
                    Acquisition and Logistics confirmed that the VA Supply Fund was not
                    reimbursed for the employee’s travel expenses.

Lack of             We concluded P&LO supervisors and approving officials were not aware of
Understanding       restricted vs. permitted uses of the VA Supply Fund. Similarly, approving
of Guidance
Led to
                    officials stated they were not clear about when they should use the VA
Inappropriate       Supply Fund or VHA appropriations to fund travel. As a result, they did not
Use of Funds        always ensure that appropriate funding sources were used when authorizing
                    travel.


VA Office of Inspector General                                                                   8
                    Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO


                    Officials we interviewed stated the Office of Acquisition and Logistics and
                    P&LO did not have an agreement outlining responsibilities on the use and
                    management of the VA Supply Fund. Further, P&LO did not have adequate
                    procedures in place to implement available guidance and ensure appropriate
                    use of the VA Supply Fund. This created an environment that allowed
                    improper use of the VA Supply Fund.

Corrective          During our review, P&LO took corrective action to transfer the funds for the
Action              travel that should have been funded through appropriations. In June 2013,
                    P&LO transferred the indebtedness from the VA Supply Fund account to
                    P&LO appropriated funds for the 15 trips totaling about $28,000. We
                    concluded this action was sufficient to correct the identified issue.

                    Recommendations

                    4.    We recommend the Chief Procurement and Logistics Officer provide
                          training annually to supervisors and financial officials regarding
                          permitted versus restricted uses of the VA Supply Fund.
                    5.    We recommend the Deputy Assistant Secretary, Office of Acquisition
                          and Logistics, in coordination with the Chief Procurement and
                          Logistics Officer, establish a formal agreement outlining their
                          respective management responsibilities and permitted versus restricted
                          uses of the VA Supply Fund.

Management          The Under Secretary for Health agreed with our findings and
Comments            recommendations and requested that the Deputy Assistant Secretary, Office
and OIG
Response
                    of Acquisition and Logistics take the lead Recommendation 5. The Under
                    Secretary stated that upon completion of Recommendation 5, the Chief
                    Procurement and Logistics Officer will schedule a mandatory meeting and
                    conduct training to ensure supervisors and financial officials are aware of
                    permitted versus restricted uses of the VA Supply Fund. Further, each
                    P&LO Deputy will certify to the Chief Procurement and Logistics Officer
                    that subordinate supervisors and/or financial officials receive the training
                    annually and records of the certification are maintained for auditing
                    purposes.    P&LO planned to implement the corrective actions by
                    December 30, 2013.

                    The Principal Executive Director, Office of Acquisition, Logistics, and
                    Construction concurred with Recommendation 4 and partially concurred
                    with Recommendation 5. The Principal Executive Director stated that
                    OALC will serve as the lead, in coordination with P&LO, in establishing a
                    formal agreement outlining OALC’s respective management responsibilities
                    and permitted use of VA Supply Funds. Further, OALC will work with
                    P&LO to draft a memorandum of understanding. OALC plans to implement
                    this corrective action by September 30, 2013.



VA Office of Inspector General                                                                   9
                    Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO


                    The Under Secretary’s and Principal Executive Director’s comments and
                    corrective actions plan were responsive to the intent of the recommendations.
                    We will monitor implementation of these actions and will close
                    recommendations when we receive sufficient evidence demonstrating
                    P&LO’s progress in addressing the issues identified. Appendix D provides
                    the full text of the Under Secretary’s comments, and Appendix E provides
                    the full text of the Principal Executive Director’s comments.




VA Office of Inspector General                                                                  10
                    Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO


Appendix A          Scope and Methodology

                    We conducted this review from December 2011 through July 2013. Our
                    work focused on P&LO management of travel, duty station assignments,
                    salaries, and funds for FY 2010.

Methodology         We researched, identified, and reviewed applicable Federal laws and
                    regulations, prior audit reports, and VA policies related to travel, duty station
                    assignments, employee locality pay adjustments, and usage of the VA
                    Supply Fund. We obtained and reviewed relevant data from the FedTraveler
                    and PAID systems. We also obtained and reviewed Office of General
                    Counsel opinions pertinent to use of the VA Supply Fund.

                    For our review, we identified 20 P&LO employees who during FY 2010:

                           Incurred more than $25,000 in travel expenses in one year or traveled
                            45 days or more in one year,
                           traveled more than 51 percent or more of the 251 FY 2010 Federal
                            work days to one location,
                           had residence addresses more than 75 miles from their duty station
                            assignments, and/or
                           had salaries paid by the VA Supply Fund.

                    These 20 employees took 356 trips, including local travel. We interviewed
                    each employee and his or her supervisor when possible, and requested
                    documentation to support their interview responses.

Data Reliability    We used computer-processed data extracted from the FedTraveler system to
                    identify and review travel records for P&LO employees for FY 2010. We
                    obtained and reviewed previous audits and reviews of the FedTraveler
                    system and determined that the data were sufficiently reliable for our review
                    purposes.

                    We also used computer-processed data from the PAID system to identify
                    duty stations, residential addresses, base salaries, locality pay rates, and
                    personnel actions for P&LO employees in FY 2010. We verified the PAID
                    data through employee interviews and analysis of employee leave and
                    earnings statements. We concluded that the computer-processed data from
                    the PAID system were sufficiently reliable for our review purposes.

Government          We conducted our review in accordance with Quality Standards for
Standards           Inspections and Evaluations published by the Council of Inspectors General
                    on Integrity and Efficiency. These standards guide the conduct of all
                    inspection work performed by Offices of Inspectors General. Accordingly,
                    based on our review objective, we believe the evidence obtained provides a
                    reasonable basis for our findings and conclusions.

VA Office of Inspector General                                                                    11
                    Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO


Appendix B          Background

VA Supply           The VA Supply Fund is a self-supporting revolving fund, statutorily
Fund                authorized by Title 38 United States Code § 8121, Revolving Supply Fund.
                    The VA Supply Fund supports VA’s mission through the operation and
                    maintenance of a supply system, including procurement of supplies,
                    equipment, personal services, and the repair and reclamation of used, spent,
                    or excess personal property.

                     In addition to VA, the fund supports the procurement of supplies and
                    equipment for other Federal agencies such as the Department of Defense and
                    the Department of Health and Human Services. The VA Supply Fund is
                    reimbursed by customers for the cost of all services, equipment, and supplies
                    furnished. The fund recovers its operating expenses through fees charged on
                    products and services purchased from VA. The VA Supply Fund is available
                    without fiscal year limitations. The Office of Acquisition and Logistics
                    operates and oversees the VA Supply Fund, including financial reporting,
                    budgeting, accounting operations, and oversight.




VA Office of Inspector General                                                                  12
                    Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO


Appendix C          Potential Monetary Benefits in Accordance                               With
                    Inspector General Act Amendments


                                                                    Better Use      Questioned
             Recommendation          Explanation of Benefits
                                                                     of Funds         Costs



                                   Recoupment of identified
                                   overpayments for locality
                      3            pay associated with an                 $0           $17,803
                                   incorrect duty station
                                   assignment.


                                               Total                      $0           $17,803




VA Office of Inspector General                                                                   13
                       Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO


Appendix D              Under Secretary for Health Comments


                  Department of
                  Veterans Affairs                          Memorandum
          Date:      September 13, 2013

         From:       Under Secretary for Health (10)

          Subj:      Healthcare Inspection – Review of the Management of Travel, Duty Stations,
                     Salaries, and Funds in the Procurement and Logistics Office (Project 2011-
                     01653-D2-0214) (VAIQ 7394565)

           To:       Assistant Inspector General for Audits and Evaluations (52)


                  1. Thank you for providing me this opportunity to respond to the Review of the
                     Management of Travel, Duty Stations, Salaries, and Funds in the
                     Procurement and Logistics Office.
                  2. I have reviewed the draft report and concur with              the   report’s
                     recommendations. Attached are corrective action plans.

                  3. If you have any questions or need additional information, please contact
                     Karen Rasmussen, Acting Director, Management Review Service at (202)
                     461-6643, or by e-mail at karen.rasmussen@va.gov.




                     Attachment




VA Office of Inspector General                                                                      14
                    Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO


                                                                                 ATTACHMENT

                      VETERANS HEALTH ADMINISTRATION (VHA)
                                   Action Plan

Office of Inspector General, Draft Report, Review of the Management of Travel,
Duty Stations, Salaries, and Funds in the Procurement and Logistics Office
(P&LO) (VAIQ 7394565)

Date of Draft Report: August 13, 2013

Recommendations/                           Status                        Completion
Actions                                                                  Date


Recommendation 1: We recommend the Chief Procurement and Logistics Officer
establish standard operating procedures to ensure that Procurement and
Logistics Office approving officials only authorize travel upon obtaining the
information needed to determine if travel is necessary.

VHA Comments:

Concur

Travel for all Procurement and Logistics Office staff is entered in a centralized
SharePoint portal that requires a business case and full expenditure details before
supervisor and SES approvals occur. An uploaded copy of the approval document
must be included in FedTraveler request before first level (budget team) and second
level (supervisor) approvals occur. On October 23, 2012, thorough guidance was
provided to all Procurement and Logistics Office staff via email followed by 6 weeks of
training via live meetings to ensure all staff was properly trained.

                                           Completed                     October 23, 2012


Recommendation 2: We recommend the Chief Procurement and Logistics Officer
perform an annual review of all Procurement and Logistics Office employees to
ensure they have correct duty station assignments.

VHA Comments:

Concur

Between 2011 and 2012, the Procurement and Logistics Office Human Resources
Liaison conducted a review and made several corrections to employees’ incorrect duty
locations. A master report was pulled and employees’ appropriate duty locations were
verified or corrected. The review began in September 2013, and will be conducted
annually during the 4th quarter of each Fiscal Year (FY).

VA Office of Inspector General                                                                  15
                    Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO


                                           In Progress                   September 30, 2013


Recommendation 3: We recommend the Chief Procurement and Logistics Officer
take action to recoup salary overpayments or pay underpayments for incorrect
duty station assignments, as appropriate, in accordance with VA guidance.

VHA comments:

Concur

A review process is in progress to assess whether a retired Procurement and Logistics
Office employee (per OIG’s specific recommendation) was paid under the correct duty
station. The Procurement and Logistics Officer will ensure that identified overpayments
are recouped or underpayments are paid, as appropriate. A master report will be pulled
and employees and their appropriate duty location will be verified and corrected. This
will continue to be an annual review during the 4th quarter of each FY.

                                           In Progress                   October 30, 2013


Recommendation 4: We recommend the Chief Procurement and Logistics Officer
provide training annually to supervisors and financial officials regarding
permitted versus restricted uses of the VA Supply Fund.

VHA Comments:

Concur

Upon completion of recommendation 5, the Chief Procurement and Logistics Officer
will schedule a mandatory meeting and conduct training to ensure supervisors and
financial officials are aware of permitted versus restricted uses of the VA Supply
Fund. Each Procurement and Logistics Office Deputy will certify to the Chief
Procurement and Logistics Officer that their subordinate supervisors and/or financial
officials received the training annually. Records of the certification will be maintained
for auditing purposes.

                                           In Progress                   December 30, 2013

Recommendation 5: We recommend the Deputy Assistant Secretary, Office of
Acquisition and Logistics, in coordination with the Chief Procurement and
Logistics Officer, establish a formal agreement outlining their respective
management responsibilities and permitted versus restricted uses of the VA
Supply Fund.

VHA Comments:

Concur


VA Office of Inspector General                                                                  16
                    Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO


The Deputy Assistant Secretary, Office of Acquisition and Logistics will coordinate with
the Chief Procurement and Logistics Officer, in establishing a formal agreement
outlining respective management responsibilities and permitted use of VA Supply
Funds. The Office of Acquisition and Logistics will work with the Procurement and
Logistics Office and draft a memorandum of understanding (MOU).

                                           In Progress                   September 30, 2013


Veterans Health Administration
September 2013




VA Office of Inspector General                                                                  17
                       Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO


Appendix E             Principal Executive Director, Office of Acquisition,
                       Logistics, and Construction Comments



                  Department of                             Memorandum
                  Veterans Affairs
          Date:      September 9, 2013

          From:      Principal Executive Director, Office of Acquisition, Logistics, and
                     Construction (003)

          Subj:      Request for Review and Action Plan – OIG’s draft report Review of the
                     Management of Travel, Duty Stations, Salaries, and Funds in the
                     Procurement and Logistics Office (VAIQ 7391329)

            To:      Assistant Inspector General for Audits and Evaluations (52)

                  1. The Office of Acquisition, Logistics, and Construction (OALC) completed
                     its review of the Office of Inspector General’s (OIG) draft report on
                     Veterans Health Administration “Review of the Management of Travel,
                     Duty Stations, Salaries, and Funds in the Procurement and Logistics Office
                     (PLO).”

                  2. OALC concurs with OIG on recommendations 1 through 4. OALC partially
                     concurs with recommendation 5, which recommends the Chief
                     Procurement and Logistics Officer (PLO), in coordination with the Deputy
                     Assistant Secretary, Office of Acquisition and Logistics, establish a formal
                     agreement outlining their respective management responsibilities and
                     permitted versus restricted uses of the VA Supply Fund. OALC will serve
                     as lead, in coordination with PLO, in establishing a formal agreement
                     outlining OALC’s respective management responsibilities and permitted
                     use of VA Supply Funds. OALC will work with PLO and draft a
                     memorandum of understanding (MOU). By September 30, 2013, OALC
                     anticipates respective principals will sign and execute the MOU.

                  3. If you have any questions, please contact Shana Love Holmon, OALC
                     Executive Assistant, at (202) 632-4606 or shana.love-holmon@va.gov.




VA Office of Inspector General                                                                      18
                    Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO


Appendix F          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact                 For more information about this report, please
                                                  contact the Office of Inspector General at
                                                  (202) 461-4720.

                      Acknowledgments             Paul M. Sondel, Director
                                                  Nicholas Dahl
                                                  Meredith Hauber
                                                  Marie Orlofski
                                                  Shawn Steele
                                                  Briana Webster

                      Additional administrative
                      support provided by:        Jerry Goss
                                                  Richard Wright




VA Office of Inspector General                                                                  19
                    Review of VHA’s Management of Travel, Duty Stations, Salaries and Funds in P&LO


Appendix G          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                  20
